No. 19-1252

In the Supreme Court of the United States
CALLAN CAMPBELL, KEVIN C. CHADWICK (INDIVIDUALLY AND THROUGH HIS COURTAPPOINTED ADMINISTRATORS, JAMES H. CHADWICK), JUDITH STRODE CHADWICK, THE

TYLER JUNSO ESTATE (THROUGH KEVIN JUNSO, ITS PERSONAL REPRESENTATIVE), NIKI
JUNSO, AND KEVIN JUNSO, ALL ON THEIR OWN BEHALF AND ON BEHALF OF A CLASS OF
ALL OTHERS SIMILARLY SITUATED,
Petitioners,
v.
UNITED STATES
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Federal Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO BRIEF IN
OPPOSITION in the above-captioned case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for
the text, and 10 point for the footnotes, and this brief contains 2,983 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 25, 2020.
__________________________________
Robert H. Thomas
Damon Key Leong Kupchak Hastert
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Counsel of Record for Petitioners

